No. 19-1116
IN THE

LINKEDIN, CORP.,
Petitioner,

v.
HIQ LABS, INC.,

Respondent.
As required by Supreme Court Rule 33.1(h), I certify that the Motion for
Leave to File Brief as Amicus Curiae and the Brief of the Electronic Privacy
Information Center as Amicus Curiae in Support of Petitioner comply with the word
limitations set forth by the Rules of the Court. I certify that the Motion contains 682
words, and the Brief contains 5,379 words, not counting the portions excluded by
Supreme Court Rule 33.1(d).
I declare that under penalty of perjury that the foregoing is true and correct.
Executed on April 13, 2020.
/s/ Marc Rotenberg
Marc Rotenberg
Electronic Privacy Information
Center (EPIC)
1519 New Hampshire Ave N.W.
Washington, DC 20036
(202) 483-1140
rotenberg@epic.org

